<html>
<title> - [H.A.S.C. No. 112-155] FEDERAL VOTING ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                                     

 
                         [H.A.S.C. No. 112-155]
                   FEDERAL VOTING ASSISTANCE PROGRAM

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 13, 2012


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     


                  U.S. GOVERNMENT PRINTING OFFICE
76-216                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9dec9d6f9dacccacdd1dcd5c997dad6d497">[email&#160;protected]</a>  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
               Jeanette James, Professional Staff Member
                 Debra Wada, Professional Staff Member
                    James Weiss, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, September 13, 2012, Federal Voting Assistance Program..     1

Appendix:

Thursday, September 13, 2012.....................................    21
                              ----------                              

                      THURSDAY, SEPTEMBER 13, 2012
                   FEDERAL VOTING ASSISTANCE PROGRAM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Mitchell, Pamela S., Acting Director, Federal Voting Assistance 
  Program, U.S. Department of Defense............................     6
Moorefield, Amb. (Ret.) Kenneth, Deputy Inspector General for 
  Special Plans and Operations, U.S. Department of Defense.......     3

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    27
    Mitchell, Pamela S...........................................    39
    Moorefield, Amb. (Ret.) Kenneth..............................    28
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    Testimony of Pamela Smith, President, VerifiedVoting.org.....    59

Witness Responses to Questions Asked During the Hearing:

    Dr. Heck.....................................................    67
    Ms. Tsongas..................................................    67
    Mr. West.....................................................    68

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................    71
                   FEDERAL VOTING ASSISTANCE PROGRAM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                      Washington, DC, Thursday, September 13, 2012.
    The subcommittee met, pursuant to call, at 11:31 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, good morning. Welcome to 
a hearing of the Military Personnel Subcommittee of the House 
Armed Services Committee.
    Today this subcommittee meets to hear testimony from the 
Department of Defense to help us understand how members of the 
Armed Forces and their families, along with U.S. civilians 
living and working outside of the United States, are afforded 
the opportunity to exercise their right to vote.
    I want to welcome our witnesses and I look forward to their 
testimony.
    Voting is a fundamental and essential part of the 
democratic process. It is both our right and our duty as 
citizens of a democracy to set the direction of the Nation by 
selecting the individuals who will represent us at each level 
of government.
    This responsibility remains with us regardless of where we 
choose to live and work or, as in the case of our service 
members, where they are sent to defend our freedoms.
    For many years, Congress has been concerned about military 
and overseas voters who have told us about the difficulties 
they face when they try to cast their ballots.
    Registering to vote, receiving a ballot by mail and 
returning the ballot by mail in time for the vote to count in 
an election when the voter is not physically located in the 
United States is challenging at best.
    One can only imagine the difficulty trying to accomplish 
that same process when the voter is at a remote outpost in 
Afghanistan, fighting a war.
    Yet, these are the very individuals who, through their 
military service, protect our right to vote.
    Congress has worked hard over the last several years to 
ensure that the men and women assigned overseas on behalf of 
our country do not lose their ability to vote as a result of 
their service.
    A number of Federal laws have been enacted to enable the 
military and U.S. citizens abroad to vote in Federal elections. 
Most recently Congress enacted the Military and Overseas Voter 
Empowerment Act, the MOVE Act, as part of the National Defense 
Authorization Act for the fiscal year 2010.
    The MOVE Act required the Department of Defense to make 
several changes to the Federal Voting Assistance Program to 
improve the process by which the military absentee ballots are 
cast.
    However, the most recent report by the Department of 
Defense Inspector General on the Department of Defense's 
implementation of the requirements of the MOVE Act finds that 
the military services are falling short in establishing 
installation voting assistance offices.
    I look forward to hearing from our Department of Defense 
witness on how the Department will fully implement the 
legislative improvements that are intended to assist military 
and overseas voters.
    I am also interested to know how the changes to the Federal 
Voting Assistance Program have affected the military and 
overseas voter in the lead up to the 2012 general election.
    I will close by saying that every day our troops lay their 
lives on the line to defend freedom and it is our job that we 
make sure that they are not denied the right to vote.
    Before I introduce our panel, let me offer Congresswoman 
Susan Davis of California, the ranking member, an opportunity 
to make her opening remarks.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman.
    And I certainly look forward to hearing from our witnesses, 
Ambassador Kenneth Moorefield, Deputy Inspector General for 
Special Plans and Operations and Ms. Pamela Mitchell, the 
Acting Director of the Federal Voting Assistance Program. Thank 
you for being with us.
    The Federal Voting Assistance Program has been given the 
lead in carrying out the responsibilities of the Department of 
Defense to inform and to educate Americans worldwide of the 
their right to vote, to foster voter participation and protect 
the integrity and enhance the electoral process for overseas 
voters at every level of government, from the local to the 
Federal level.
    Many new voter assistance requirements were included in the 
National Defense Authorization Act for fiscal year 2010, Public 
Law 111-84, such as requiring the development of online 
portals, to provide voter registration procedures and 
notifications, and establishment of voting assistance offices 
and the development of standards for reporting requirements.
    I am very interested this morning in hearing from our 
witnesses on how implementation is going, what we have learned 
and whether additional programs or processes have been 
identified to further improve voting assistance and 
participation.
    While the recent Inspector General report found that over 
half of the offices that are required to be established on 
military installations were unable to be contacted, the report 
did not address whether the offices that were established are 
effective in meeting the needs of military and overseas voters.
    What efforts, if any, is the Department taking to measure 
the effectiveness of these offices and the services that are 
being provided? The Inspector General recommended that 
alternative methods to reach out to military voters, especially 
since such a majority of them are young, single individuals who 
may not necessarily have a propensity to vote, especially 
overseas, be adopted.
    If such efforts are undertaken then what efforts will be 
established to measure the effectiveness of these alternative 
methods, whether part of social media, how do we go ahead and 
measure that as well?
    As resources continue to be reduced, we need to ensure that 
the programs that are established to assist military and 
overseas voters are efficient; not only efficient but that they 
are also cost effective.
    I look forward to hearing from our witnesses. The upcoming 
elections, as we all know, are a mere 7 weeks ahead. So it is 
imperative that we ensure that all Americans have the ability 
to vote in our electoral process, but especially those who are 
on the front lines of defending our Nation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 27.]
    Mr. Wilson. Thank you, Mrs. Davis.
    We are joined today by an outstanding panel. We would like 
to give each witness the opportunity to present his or her 
testimony and each member an opportunity to question the 
witnesses.
    I would respectfully remind the witnesses that we desire 
that you summarize to the greatest extent possible the 
highlights of your written testimony. I assure you that your 
written comments and statements will be made part of the 
hearing record.
    At this time, without objection, I ask unanimous consent 
that an additional statement from VerifiedVoting.org be 
included in this record of the hearing.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Wilson. Without objection, so ordered.
    Let me welcome our panel: Ambassador Kenneth Moorefield, 
Deputy Inspector General for Plans and Operations of the 
Department of Defense. Additionally, we have Ms. Pamela S. 
Mitchell, who is the Acting Director of the Federal Voting 
Assistance Program, Defense Human Resources Activity.
    At this time we will begin with Ambassador Moorefield.

 STATEMENT OF AMB. (RET.) KENNETH MOOREFIELD, DEPUTY INSPECTOR 
 GENERAL FOR SPECIAL PLANS AND OPERATIONS, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Moorefield. Thank you, Mr. Chairman. Good morning and 
also Ranking Member Davis and distinguished members of the 
Subcommittee on Military Personnel, thank you for this 
opportunity to discuss past and ongoing DOD IG [Department of 
Defense Inspector General] oversight regarding the DOD 
implementation of voter assistance programs.
    We share your commitment to ensuring that U.S. military 
service members worldwide and other eligible overseas citizens 
have the opportunity to exercise their democratic rights as 
American citizens to vote.
    The law requires the Army, Navy, Air Force, and Marine 
Corps IGs to annually review their own Services' voting 
assistance programs and report results to the DOD IG
    Since 2001 the DOD IG has issued 11 reports describing the 
results of these annual reviews. Our latest report, issued in 
March 2012, is discussed in our written testimony.
    In 2009, the Military and Overseas Voter Empowerment Act, 
or MOVE Act, was passed. It established various programs to 
help military and other overseas citizen voters to register and 
to vote.
    The MOVE Act required the military services to have an 
installation voting assistance office on every installation 
worldwide, with the exception of those in a war zone.
    The use of Federal Write-In Absentee Ballots for Federal 
elections was to be expanded. DOD, through its FVAP [Federal 
Voting Assistance Program] office, was intended to implement a 
number of new electronic voting support programs and systems.
    The FVAP office also had to report to the Congress annually 
on their assessment of compliance with voting assistance laws 
and the effectiveness of voting assistance programs, including 
programs implemented by each of the military services.
    In August 2012, the DOD IG released a self-initiated report 
assessing key obligations and actions carried out by DOD and 
FVAP under the MOVE Act.
    We specifically focused on the establishment of voting 
assistance offices on every military installation worldwide and 
the sufficiency of survey data used to assess DOD's Voting 
Assistance Program effectiveness related to the 2010 elections.
    DOD implementing instructions for the establishment of the 
IVAOs [Installation Voting Assistance Offices] required robust 
walk-in offices; the DOD estimated would be staffed with one to 
two full-time personnel to perform the required voting 
assistance functions.
    To determine if the Services had established a robust IVAO 
presence on all installations worldwide, we examined FVAP's 
official list of installations as of March 2012.
    We immediately noted that the list was in some instances 
either inaccurate or incomplete, with installations such as 
Fort Meade, Maryland; Camp Casey, Korea, and the U.S. Army 
garrison in Kaiserslautern in Germany not listed and other 
bases listed that no longer existed.
    It became apparent that installation consolidations or 
closures resulting from the 2005 BRAC [Base Closure and 
Realignment] program, such as the consolidation of the 12 
multiservice joint bases, in part had contributed to omissions 
and duplications.
    To test the accessibility of the IVAOs, we placed ourselves 
in the shoes of potential military voters seeking help. Using 
the official FVAP Web site information as of March 2012, we 
attempted to contact each of the 229 IVAOs listed.
    It turned out that not all of the FVAP contact information 
was current. We initially called the IVAO phone number. If no 
one answered, we left a voicemail asking for a return call and 
if there was an e-mail address, followed up with an e-mail.
    If we could not make contact on our initial attempt, we 
called installation telephone operators or accessed 
installation Web sites to obtain updated IVAO contact 
information.
    Ultimately, in about 50 percent of the cases we were unable 
to contact IVAOs using our updated version of the FVAP Web site 
installation list and concluded that the offices either did not 
exist or were not reasonably accessible.
    In partial explanation, some senior military officials 
pointed out that the law had not provided additional funding, 
which FVAP estimated at $15 million to $20 million per year, 
necessary to fund at least one assistance person at each IVAO 
and bases, moreover, were not funded internally by DOD to 
enable commanders to meet this obligation.
    On another issue, the FVAP 2010 post-election survey report 
to Congress, dated September 2011, asserted that voting 
assistance was effective in the 2010 election because, one, DOD 
statistical analysis indicated military populations registered 
and voted at higher rates than civilians and, two, that 
military participation had improved appreciably between 2006 
and 2010.
    To determine if these conclusions were reliable and 
accurately reflected the effectiveness of DOD voting assistance 
programs, DOD IG's Quantitative Methods Division assessed their 
survey methodology.
    They noted that only 15 percent of military personnel 
contacted had responded to the survey and that FVAP's 
conclusions in the reports could be considered inconclusive and 
would have been more credible with a higher response rate.
    We recommended that the FVAP office design a survey that 
will increase the 2012 post-election survey response rate.
    Finally, I should add that during our assessment we 
observed that the FVAP had made significant efforts to develop 
and implement a military voter communications plan.
    This was intended, we believe, in part, and primarily 
perhaps even, to get to younger voting personnel. And it used 
information technology of various--of various kinds, including 
social media, direct e-mail notifications and Web-based 
systems.
    FVAP officials indicated that these initiatives were having 
a positive impact. For example, they noted that as they began 
their outreach and communication program for the 2012 
primaries, activity on their Web-based systems significantly 
increased.
    Feedback from the military services incorporated in our 
March 2012 report to Congress indicated that they too were 
increasing use of targeted advertising, social media, and other 
easy to use online tools to more effectively reach younger 
service members.
    In closing this morning, let me emphasize that the DOD IG 
remains committed to providing oversight of DOD's role in the 
Federal voting assistance programs.
    I look forward to answering any questions that you may have 
and I thank you.
    [The prepared statement of Mr. Moorefield can be found in 
the Appendix on page 28.]
    Mr. Wilson. Thank you, Ambassador.
    We now proceed to Ms. Pamela S. Mitchell.

   STATEMENT OF PAMELA S. MITCHELL, ACTING DIRECTOR, FEDERAL 
     VOTING ASSISTANCE PROGRAM, U.S. DEPARTMENT OF DEFENSE

    Ms. Mitchell. Chairman Wilson, Ranking Member Davis, and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss the Federal Voting Assistance Program, 
or FVAP, and its implementation of the MOVE Act.
    For absentee service member and overseas citizen voters, as 
for all U.S. citizens, the decision to cast a vote in an 
election is a personal choice.
    To that end, the Federal Voting Assistance Program is 
committed to two primary tenets: promoting awareness of 
upcoming elections, with a specific focus on the right of 
service members and overseas citizens to vote by absentee 
ballot; and to eliminating barriers for those who choose to 
exercise their right to vote.
    We provide voting assistance every day, and we have never 
done it better. Voters seeking assistance will find a myriad of 
resources available, including a professional call center, 
well-trained voting assistance officers, and an information-
rich Web portal at fvap.gov.
    This year we conducted in-person and online installation 
voter assistance, or IVA, office training worldwide, and we 
visited 43 IVA offices to provide training and assistance.
    We also provide Webinar training and a self-paced course 
for both IVA office staff and unit voting assistance officers 
that is on demand.
    As noted, the Department of Defense Inspector General 
recently identified problems in contacting IVA offices. And as 
the Ambassador said, they found outdated contact information.
    However, IVA offices are open. As we review contact 
information, we find that it changes, as it often does in 
military environments, because of transfers, deployments, and 
other requirements.
    FVAP has authority and budget resources to provide policy 
guidance and assistance to the Services. Such guidance is 
outlined in the Department of Defense Instruction 1000.04, 
which defines the responsibilities of the Federal Voting 
Assistance Program. It consolidates and enhances Department 
policy by outlining specific requirements for the military 
service voting assistance programs. Publication of this 
instruction is the culmination of a meticulous Department 
process.
    It is important to note that while IVA offices are one 
resource, they are one of many. We also provide an online 
wizard that produces a completed registration and ballot 
request. We send service members at least six reminder messages 
addressing voter registration. We have conducted train-the-
trainer workshops at 81 locations worldwide.
    As the Ambassador noted, we are conducting a comprehensive 
communications and outreach campaign, and we established a call 
center that provides support by phone, by e-mail, and by online 
chat.
    In addition to our efforts, the Services are also actively 
engaged to increase awareness of the election and service 
members' right to vote.
    Looking at this in another way, there were over 8 million 
visits to the FVAP Web site since November 2011 and over 
380,000 individuals have downloaded the Federal postcard 
application during that time.
    To put the amount of those downloads in perspective, 
380,000 is nearly the size of the United States Air Force.
    We also dispatch 1.4 million e-mails five times since 
January, with at least two more transmissions of 1.4 million to 
be sent before the election.
    And, as of 30 June, the Services reported that their 
installation and unit voting assistance officers had helped 
over 550,000.
    It is also important to note that State laws and voting 
procedures drive absentee voting success or failure. That is 
why FVAP has worked with States to improve their election laws. 
Thirty-two States have passed laws benefiting absentee voters 
since the 2010 general election.
    Registration rates alone are poor indicators of the 
effectiveness of voting assistance. The information, tools, and 
other resources are in place, the outreach is ongoing, and we 
continuously look for ways to improve the Department's ability, 
both to promote awareness of every service member's right to 
vote and of the upcoming elections.
    Voting assistance has never been better, given the breadth 
of tools, information, and other resources now available.
    I spent over 25 years in uniform, and I wish I had access 
to the tools that are out there today. However, even if only 
one absentee service member or overseas citizen has a problem, 
we believe it is one too many, and there is no question that we 
still have work to do.
    Thank you and I look forward to your questions.
    [The prepared statement of Ms. Mitchell can be found in the 
Appendix on page 39.]
    Mr. Wilson. Thank you both for your presentations, and we 
will now proceed to questions from each member of the 
subcommittee. We are very fortunate to be joined by Ms. 
Jeanette James. She is professional staff, a person above any 
standard of consideration. And she will be maintaining the 5-
minute rule. And so we can count on her.
    As we begin, I want to thank the Inspector General for your 
report. I think you brought very important issues to the 
attention of the American people.
    Additionally, I want to also commend the Military Voter 
Protection Project and the AMVETS [American Veterans] legal 
clinic at Chapman University. They have been very thorough in 
their review of how the legislation that we are discussing 
today and the ability of voters to participate. It is a very 
thorough review, and I appreciate their oversight.
    Ms. Mitchell, the Military and Overseas Voter Empowerment 
Act provides that voting assistance be offered to troops as 
they arrive at a new duty station, and also when they deploy. 
Does each of our four Services include voting assistance 
offices for in-processing checklists at duty stations, and also 
on the list for pre-deployment processing?
    And I was glad to hear of your military service. I join 
you. I served 31 years in the Army Guard and Reserve. I am very 
grateful to have four sons currently serving in the military. 
But I have also been an election commissioner, and it is very 
frustrating to me to see how complicated some of this has 
become, according to the IG report.
    So is the in-processing list, the deployment checklist, is 
this in place?
    Ms. Mitchell. Sir, DOD policy does specify that service 
members be afforded the opportunity to register to vote during 
in-processing, out-processing, and deployments.
    I cannot speak to the specifics of how that may be handled 
by each Service on every installation.
    Mr. Wilson. And I am particularly concerned--it has been 
identified that in the offices that have been established, that 
of the 229, that it has been by the Inspector General report--
and, Ambassador, I appreciate you bringing this information 
out. That, in fact, that only 114 of the 229 that could there 
be access and contact.
    And so your report was very revealing, but at the same time 
you indicate that maybe we don't need that many offices.
    And so I would be interested in hearing why we don't need 
that many offices. And, additionally, what do you propose to 
make and improve voter participation and access.
    Mr. Moorefield. Thank you, Mr. Chairman.
    First off, let me emphasize that compliance with the law 
has no alternative, and the law is very specific about the 
requirements.
    There is a certain doubt, I think, in the part of some of 
our military commanders as to what qualifies as an 
installation, and that is understandable. In some cases 
installations today are covering three or four outlying bases. 
There is a considerable distance between some of these 
installation voting offices and bases that they support.
    It would appear to us that a careful review is probably 
necessary to determine where we actually have these offices, 
how they are functioning, and what their capabilities are to 
support any and all installations and bases they may be 
responsible for.
    Obviously, the size of the bases varies; the size of 
installation voting office coverage varies. So that, you know, 
remains to be seen as to what is appropriate given the size of 
the responsibilities and the extent of the responsibilities of 
IVAOs.
    There was another part to your question----
    Mr. Wilson. And that is, what do you propose to increase 
participation and access?
    Mr. Moorefield. Well, I truly believe, as I also was a 
former military officer and would have been very grateful, you 
know, for the kind of access that I think military officers 
have today, particularly younger ones that are well schooled in 
the use of IT [information technology] and various social media 
mechanisms.
    I think and I believe, and even though there is no metric 
yet that can confirm that other than ex post facto after 
elections--but I believe that can be determined whether or not 
that is demonstrating and indicating that it is making a 
difference. So I think that is important.
    For the immediate election, the question is--and I think 
this has been brought up by several members of the Senate--how 
a Federal voting application postcard could be made available 
on an expedited basis to individual military voters who want to 
vote and do not decline, in other words, the offer.
    There is a way to get to them. We have got unit voting 
officers all over the world, as was pointed out by Ms. 
Mitchell, and I think that it is certainly feasible to ensure 
that those that want to vote get their application. So that is 
one of the considerations I think needs to be considered for 
serious and fairly urgent implementation.
    Mr. Wilson. Thank you very much.
    And we proceed to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I appreciate you all being here.
    Could you go a little bit further in discussing about the 
assessments that were conducted? You mentioned that over half 
of them, you couldn't actually talk to somebody there, I guess, 
they didn't have a response. And yet they were--I think you 
said, Ms. Mitchell, that they were compliant. So I am trying to 
understand whether--you know, is that just a disconnect--that 
they didn't respond and that you still could get information 
from them? If you could, answer that for me.
    And also, to what extent did you actually have an 
opportunity to really assess how significant their operation 
was and what kind of a difference that made in terms of the men 
and women that were using those services? What more do we know 
about that? You mentioned social media, and of course it feels 
as if that is probably one of the best ways to reach people who 
want to vote in that fashion.
    And are the offices necessary, important? What role do they 
play? Is that something that really is being utilized to the 
extent that it could be or should be? And are there 
alternatives that actually you would suggest might need to be 
developed in a much more robust fashion?
    And I guess, Ms. Mitchell, just to answer in terms of the 
compliance, how do we know that they are complying if only half 
of them were contacted?
    Mr. Moorefield. Would you like me to go first, ma'am?
    Mrs. Davis. As long as we get both of you, that would be 
great. Thank you.
    Mr. Moorefield. Thank you. In terms of how measure the 
effectiveness of IVAOs, one of the ways you can do that, of 
course, is the incidence of contact that is made with them by 
potential military voters and what services they specifically 
provide.
    To the best of my knowledge right now, the incidence of use 
is not what was expected. What are the reasons for that? You 
asked how far we went and how far we could go. We had a 
questionnaire of 50 different points that we raised with any 
office we could make contact with, including how they were 
functioning, what degree of activity they had, and so forth.
    So we tried to go the extra mile, given that we couldn't go 
to 229 installations and eyes-on determine what exactly they 
were doing. So I think that in terms of your question as to 
whether or not they are necessary, it is still perhaps early 
stage.
    Perhaps some IVAOs are not fully developed or established. 
I can't definitively determine that because we just couldn't 
make contact with half of them. That didn't mean they didn't 
exist, you know, and maybe that they were fully functional. We 
can't confirm that one way or the other.
    But I do, as I mentioned to the chairman before, believe 
that in the world, particularly a huge voting population 
percentagewise of younger voters in the military overseas, that 
their tendency--like my own daughter, I have noticed--is not to 
find information anywhere else but through some IT mechanism; 
so whether we like that or not, that tends to be the reality.
    Ms. Mitchell. Ma'am, you asked about compliance. And we 
rely upon the Services to execute and comply and to report 
their compliance. And as a recently as the March 2012 IG 
report, it did reflect that the Service IGs found their offices 
to in execution and compliance.
    The issue of half being notified goes back, again, to the 
challenges of keeping information updated. We have done a lot 
of work this summer, as have the Services, with reaching out to 
try to maintain that information as current as possible on our 
Web site. We have progressively ramped up our outreach over the 
summer to the point that now, between now and the election, we 
will be reaching out every single week to make contact.
    And I can tell you that as of COB [close of business] 
yesterday, we have a list of installations on our Web site that 
was absolutely accurate as of yesterday. We also made 43 visits 
to installation voter assistance offices this past year. And we 
were there to provide training, but while we are there, we also 
provide assistance. So we look at how they are executing.
    And we found that of the 43, 37 were fully executing what 
they should have been doing, and the others have varying 
degrees of challenges that they needed to overcome to implement 
things. But those things were relayed to the Services and they 
did report back to us that they were fully operational.
    Mrs. Davis. I was going to follow up, but perhaps we will 
have another round.
    Okay. Thank you.
    Mr. Wilson. Thank you very much.
    And we now proceed to Congressman Dr. Joe Heck of Nevada.
    Mr. Heck. Thank you, Mr. Chairman.
    I want to start by recognizing that my State, the State of 
Nevada, was recently recognized by the military voter 
protection project for its efforts to preserve and protect and 
promote voting rights for military members. It was given all-
star status. In our State, you can register to vote, request 
and submit your absentee ballot all electronically. And 
currently our Secretary of State is traveling with a delegation 
of Secretaries and DOD members overseas to look at the impact 
of overseas voting.
    I also see, Ms. Mitchell, you talked about sending out e-
mails to remind people. I can tell you as somebody with a dot-
mil address, that I received your e-mails in January, February, 
June, August, and September encouraging me to request my 
absentee ballot if I needed one. So certainly that message is 
getting through.
    Ambassador Moorefield, you mentioned an issue with the 
definition of ``installations'' as perhaps causing confusion. 
So what steps are being taken to address the issues that you 
identified, such as the definition of an installation so that 
there is a common operating picture of who is responsible at 
what level to make sure the appropriate offices and opened and 
staffed?
    Mr. Moorefield. Thank you, Congressman.
    I do not have a sufficiently definitive answer to give you 
at this time, but I would like to take that and get back to 
you.
    I am not sure there has been a thorough assessment of it 
within DOD. And so I would like to pursue that, if you don't 
mind.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Heck. Okay. And then also, in your review, what impact, 
if any, did you find based on, you know, command emphasis on 
the importance of being involved in--obviously, you can't force 
people to vote if they don't want to, but the command emphasis 
of, one, knowing that the resources are available and 
encouraging members in the deployed environment to take 
advantage of those resources?
    I can tell you as someone who was deployed back in 2008, 
the extent of my command emphasis was a notice that was posted 
on the, you know, unit bulletin board about where the office 
was and who the contact person was, but that wasn't ever 
anything put out in any other media other than one posting on a 
bulletin board.
    Mr. Moorefield. Thank you, again.
    The reports that we turn in annually and turned in this 
last spring from the Service IGs indicate that each and every 
one of the commands in all of the military services are 
carrying out their responsibilities and duties with respect to 
their unit voting officers, which include promoting access and 
understanding to the opportunity to vote.
    I can't be any more definitive than that on the subject. 
But I will say that having spent over the last 6 years quite a 
bit of time in Iraq and Afghanistan, where you would think 
given the remoteness and the exigencies of war, that I often 
found, at least at the operating base level, that there was a 
substantial amount of information that was coming in.
    I wasn't looking for it in those days, but I just couldn't 
get away from it. It was coming in on TV monitors. It was 
coming in through multiple mechanisms--Stars and Stripes, any 
number of media opportunities and social media opportunities.
    So I was intrigued at the time and reasonably impressed. I 
don't think that there has been any diminishing in that effort. 
So even though the MOVE Act doesn't specifically apply to war 
zones, given the concentration of forces that we have had 
there, I hypothesize that if they weren't deeply engaged in 
combat operations, that the awareness and even the opportunity 
to vote could have been accessible to them.
    Mr. Heck. I would suggest that just like there may be a 
problem with the definition of an installation in the Service 
IG's report. There may be a problem with the definition of what 
is promoting access. Promoting access to one command may be 
totally different than another command. That perhaps is another 
area that needs further review and refinement.
    Mr. Moorefield. Thank you for raising that question. 
Indeed, we have initiated outreach with the military services 
and their IGs. Specifically, we have a working group that is 
beginning to look at how we can improve the conciseness, 
clarity, and value of the annual reports that the Services 
provide the IGs and then to us on unit voting.
    We are not yet satisfied that it is sufficiently revealing, 
let me put it that way. So in terms of this next annual report 
that is our responsibility to submit to the Congress, we would 
like to frankly have a more robust effort made on all sides.
    Mr. Heck. Great. Thank you both for your service and thank 
you for your report, Ambassador.
    I yield back, Mr. Chair. Thank you.
    Mr. Wilson. Thank you, Dr. Heck.
    We now proceed to Congresswoman Niki Tsongas of 
Massachusetts.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And I appreciate the seriousness of effort that you all are 
demonstrating, especially as we come to a very important 
election.
    For you, Ms. Mitchell, it seems in reading the materials 
one of the really important issues was, as we have at the 
Federal level enacted the MOVE Act and other efforts to make it 
easier for absentee voting, that there is much work that has to 
be done with the individual States in order to streamline their 
absentee voting requirements.
    I hear from Congressman Heck that Nevada is one that has 
done this very well. But I am curious how you have worked with 
each of the States to resolve some of the issues that may, 
despite all your efforts, still make it more difficult than it 
should be.
    Ms. Mitchell. Ma'am, we work with them on a regular basis 
to discuss the MOVE Act and to talk about the very things you 
just mentioned. One of the things that we talk to them about 
is, and you will forgive me because I can never remember the 
acronyms just yet, but UMOVA [Uniformed Military and Overseas 
Voters Act] which is a law that would actually make across the 
States things much more consistent for service members.
    So, for example, I have talked to service members from 
Florida who reported that they had no difficulty in figuring 
out what to do. And you talk to service members from some other 
States that have reported that it is very complex and they 
really aren't quite sure what to do. So we think that if there 
could be more consistency across the States, that would be a 
very big deal in terms of helping service members.
    Ms. Tsongas. And are there still States where it is very 
difficult, despite all the necessity of moving forward on this?
    Ms. Mitchell. Ma'am, I can't speak to the details of which 
States that might be, but I would be happy to take that for the 
record.
    Ms. Tsongas. I would like to have that answer.
    [The information referred to can be found in the Appendix 
on page 67.]
    Ms. Tsongas. And then the other question I have is that you 
have said that the various Services report that they are 
meeting all the requirements. But how do you challenge that or 
test that?
    Or is that something more you would have looked at, 
Ambassador Moorefield?
    Mr. Moorefield. Well, as I indicated--thank you, 
Congresswoman--as I indicated in response to the last question, 
we would like to drill down more on that, quite frankly.
    I mean, it is not that we don't trust the information we 
are getting, but there is the old adage about verifying. And we 
would like to figure out how to do that.
    It may be in the world of the entire universe of units 
worldwide that have voting officers that we may need to do some 
statistical sampling, you know, that--and we fortunately have 
the ability to do that within DOD IG to come up with something 
that gives us a high degree of the confidence that we 
understand their real capabilities and the real extent of the 
performance of their duties and what the impact is actually 
having on military voters.
    If I could go back for just a second to what you were 
saying about the States one of the things that I have concluded 
recently in thinking about this and reading all the literature 
that is out there--and there is quite a bit--on States' 
participation and the requirements under the MOVE Act.
    But the requirement to make enhanced use of electronic 
access to the opportunity to vote on the part of the States, 
including links to Web sites that would enable a military voter 
to download an absentee ballot, it seems to me, is really a 
great idea in the world today. And it cuts through an awful lot 
of the steps that otherwise might have to be followed by a 
military voter.
    I am pretty sure about this, but I will ask Ms. Mitchell to 
confirm. But I think that the FVAP Web site has links to those 
States that have that electronic capability.
    Ms. Mitchell. We do actually have links to all the States 
and territories.
    Ms. Tsongas. So it would be interesting to see if those 
that allow for the electronic means of accessing it, how--
comparing the data as to which are more successful and 
encourage absentee voting. Thank you and I yield back.
    Mr. Wilson. Thank you, Ms. Tsongas.
    And we now proceed to Congressman Allen West of Florida.
    Mr. West. Thank you, Mr. Chairman and Ranking Member.
    And thanks for the panel for being here today.
    I want to frame this in an initial metaphor. If a commander 
says to a unit and the sergeant major first sergeant ``We want 
the unit to go down to the motor pool, and we want to do PMCS 
[preventive maintenance checks & services] on our vehicles, 
take care of our vehicles today.'' But instead if the unit goes 
off to the barracks and they clean up the barracks, did the 
unit meet the commander's mission and intent?
    Ms. Mitchell. No, sir, they did not.
    Mr. West. Okay, so when I read here, the MOVE Act of 2009 
was designed to ensure that American men and women serving 
overseas have every opportunity to vote, requiring military 
services to open a voter assistance office on every one of its 
installations except for those in a war zone.
    I appreciate the things that you are saying you did, but a 
lot of those things were optional within the MOVE Act. The law, 
what was directed, the mission was to open up these voter 
assistance offices; and based upon the report that we got from 
the IG, 114 of 229 installation voter assistance offices. So is 
that success or failure?
    Ms. Mitchell. Sir, I would suggest it goes back to contact 
information.
    Mr. West. But that is not what the law said. The law didn't 
say anything about contact information. And that is why I used 
that metaphor. If the commander says go the motor pool and PMCS 
your vehicles and you go off to the barracks and you clean the 
barracks, did you meet the commander's intent?
    So that is the whole point here: Did we meet the intent of 
this--of this act? And I mean, then why are we here? If 
everything is going fine then why are we here having this 
hearing? We have a problem.
    So this is what I want to know: after the 2010 election did 
we have some type of after-action report or review where we 
looked at our processes and procedures from 2010?
    Ms. Mitchell. Yes, sir, we did.
    Mr. West. And what did you find from 2010?
    Ms. Mitchell. Sir, as I recall, it was a post-election 
survey. And I don't have those details in my head, but we could 
certainly provide that to you.
    [The information referred to can be found in the Appendix 
on page 68.]
    Mr. West. We would like to have that, because the next 
question is from there we should have looked at having some 
type of voter registration readiness exercise, some type of 
rehearsal to make sure that we were prepared going forward into 
2012. And I think if we had done that we would not have had all 
of these incidences of having duplicative or, you know, the 
wrong type of installations listed.
    So did we do anything between 2010 and now? I know that you 
just said you are doing things weekly, and that is great. But 
is that a reaction to us, you know, all of a sudden having news 
reports and hearings or did we have a plan of action with 
milestones between 2010 and 6 November, 2012 that would have 
made sure we didn't have to have this hearing?
    Ms. Mitchell. Sir, guidance was put out 2 years ago on 
establishing the IVA offices. It was put out to the Services. 
The Services, again, as recently as March of this year reported 
that they were operational. And as I have said a few moments 
ago, we visited 43 of those, representing about 25 percent and 
found that they did exist.
    And as of yesterday we have valid contact information for 
all of--the actual number is 221 for the military services.
    Mr. West. Okay. So are we on the right track to get the 
intent of this law implemented before we have the 6th of 
November? I mean, are we moving in the right direction? Do we 
have the type of milestones so that the military members--which 
I have friends and family members, they are starting to feel a 
little disenfranchised. That is the truth about what they are 
saying to me.
    Ms. Mitchell. Sir, I would submit that we have many 
resources available to them. The IVA office is one. It may be 
an important one in some places.
    And as to the issue of which installations they are on, 
that was up to Service discretion. And the reason for that is 
they are in the best position to understand their population, 
what the demographics look like in any particular area, and 
also what their operational environment is.
    So an analogy I would give you is I.D. card offices, dental 
clinics, medical clinics, those are not on every single 
installation worldwide, but they are in places where they can 
be accessed by service members.
    Mr. West. But this law gave a responsibility to your office 
to be able to make sure that that stuff happened, though.
    With that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much, Colonel West.
    And we now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    And you answered a couple of the questions that I had which 
dealt with registering to vote. You said that at in-service, at 
out-service, and anytime that a soldier is deployed, they are 
given the opportunity to register to vote. Is that correct?
    Ms. Mitchell. That is the guidance that has been given to 
the Services, yes, sir.
    Mr. Scott. Okay. Is that being carried out?
    Ms. Mitchell. Sir, I would defer to the Inspector General 
and the Services.
    Mr. Scott. Okay.
    Mr. Ambassador.
    Mr. Moorefield. Thank you, Congressman.
    We can't confirm one way or the other, frankly. As I said, 
we had difficulty contacting half of the IVAOs. And whether or 
not--and in what respect they were performing their functions, 
as I said we had a fairly exhaustive questionnaire. I think the 
results were mixed. Some of them I would say--some appeared to 
be doing exactly what they needed to be doing and others, maybe 
less so.
    And as I mentioned also, previously there is some questions 
in our minds as to whether or not they are getting the activity 
that perhaps was the intent. And I am not sure if that is 
because they are not promoting themselves enough or they are 
not accessible enough or in the right places or because 
military voters today, particularly younger ones, would much 
rather not go to bricks-and-mortar place but look it up on an 
IT site.
    Mr. Scott. Mr. Ambassador, if I can--thank you for that.
    I will tell you, that seems pretty simple. When you go to 
register for a driver's license you can automatically register 
to vote.
    And if the DOD has not implemented that, that seems to me 
that that is borderline negligence, especially when they have 
been directed that at in-service, out-service, and deployment--
that our men and women that are in the military should be 
allowed to register there. And if the States can do it when 
somebody applies for a driver's license, it sure seems to me 
that DOD could do it if they wanted to on the other side.
    Are you aware of the report that says the Justice 
Department encouraged States to use waivers that bypass the 
MOVE Act? Are you aware of that and do you have any indication 
that that may be true or is that just a news report that 
doesn't have any basis?
    Mr. Moorefield. I am sorry. Could you restate that question 
please?
    Mr. Scott. There were some reports that the Justice 
Department encouraged States to use waivers to bypass the MOVE 
Act. Are you aware of any States being given waivers to bypass 
the MOVE Act?
    Mr. Moorefield. I don't know anything about any recent 
activity. It seems to me I recall--and this is what I read in 
several reports, so I can't confirm it beyond that--that they 
had the authority to issue waivers and so it had selectively in 
the past issued waivers where States had not been able to ramp 
up effectively enough in order to comply with the law.
    Whether or not that has happened recently I can't say.
    Mr. Scott. Okay.
    Let me ask one other question. This may be more for you, 
Ms. Mitchell.
    But it seems to me, as somebody who, in watching the DOD 
from the Armed Services Committee--and if you watch how the DOD 
carried out the ``Don't Ask, Don't Tell'' surveys, for 
example--it seems to me that the DOD made sure that they got 
the ``Don't Ask, Don't Tell'' surveys to every member of the 
military to every spouse, to everybody that they were supposed 
to, but when it comes to military voting it seems that we are 
not able to get the absentee ballots to our soldiers.
    And, I guess, can you explain the disparity in how when it 
comes to a ``Don't Ask, Don't Tell'' survey the DOD takes every 
effort and makes every effort to make sure that every soldier 
and every family member gets that but when it comes to voting 
the effort is certainly subpar compared to what we saw with 
that other movement?
    Ms. Mitchell. Sir, in terms of surveys, we are actively 
working with the Defense Manpower Data Center on a strategy to 
improve the response rate, if I understand that to be your 
question.
    Mr. Scott. I am talking about getting our men and women who 
are overseas their absentee ballots.
    The DOD got them their surveys with ``Don't Ask, Don't 
Tell,'' but we don't seem to be able to get them their absentee 
ballots so that they can vote, and it seems to me that there is 
a different standard there when it comes to voting versus a 
survey that the DOD or the Administration actually wanted the 
response to?
    Ms. Mitchell. Well, sir, I think one of the great things 
about the MOVE Act is the 45-day requirement on the States to 
get the ballots out. And of course the States are the ones who 
send out the ballots, as opposed to DOD.
    What we have done is put a very good process in place for 
service members to be able to get the Federal postcard 
application so that they can request those ballots.
    And many States now are providing for electronic delivery 
of the ballot or online or via e-mail, which is a big 
improvement in the way they may receive ballots.
    Mr. Scott. Mr. Chairman, my time has expired. Thank you.
    Mr. Wilson. Thank you very much, Mr. Scott.
    We now proceed to Congressman Mike Coffman of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you both for your involvement in this critical 
issue. I really think that the most sacred right afforded to 
Americans is the right to vote.
    And for those who are fighting in defense of our rights, of 
our freedoms, I think that we have to do everything we can to 
make sure that they have that right.
    One metric it seems that we are focused on are these 
installation voting assistance offices. You know, as someone 
who was a junior enlisted Army guy when I turned 18, and had 
that right to vote, and who was a Marine Corps officer in a 
combat zone where I tried to vote, I want to say, first of all, 
that I don't think that that is the metric to look at.
    I think that the metric to look at are the voting 
assistance officers that are scattered throughout the commands 
as collateral responsibilities.
    And my concern is the training for those voting assistance 
officers. And to what extent that they are available, so how 
far today do they go down? Are they at the company level and 
their other Services' equivalence or at the battalion level?
    And what is the extent of their training for those folks? 
And, Ms. Mitchell, maybe you could answer that first.
    Ms. Mitchell. Yes, sir. Thank you.
    Unit voting assistance officers are supposed to be 
appointed for units of 25 or more. That may vary in some cases 
because of the type of unit.
    Training is done in a variety of ways. We do train the 
trainer. The Services do the same. We also have Webinars and we 
have on-demand training that is offered through our Web site.
    We have also provided training to the Services for use on 
their learning-management systems.
    Mr. Coffman. Ambassador.
    Mr. Moorefield. It is certainly our understanding that they 
are receiving training, that they have that responsibility for 
units of 25 or greater. And as I said, we are turning in an 
annual report that is based on the military IG's reports as to 
what activities they have undertaken.
    The only thing that I have posed is what we believe is a 
challenge to us and to the military IGs is to drill down a 
little bit further as to exactly the extent of the 
effectiveness, as it were, of that interaction with their 
military personnel in each unit.
    Mr. Coffman. Okay. Well, then one thing that I am concerned 
about when I served in Iraq in 2005, 2006, I was not able to 
vote in the 2005 election back home.
    In the, you know, the race to report in and the stresses of 
pre-deployment, I didn't do my absentee ballot for my 
respective States. Then I found--then when I got into the 
combat zone the laws of my State, Colorado, didn't comport with 
the realities of serving in a combat zone where they expected 
you to be able to utilize a fax machine that didn't exist in 
Iraq at the time.
    And so I think they have since adjusted those laws. But are 
we also making efforts for those off-election years where those 
service members can vote in their respective States of home-of-
record.
    Could you, Ms. Mitchell?
    Ms. Mitchell. Yes, sir.
    Every election is important, whether it be in one of the 
odd years or the even years. And so, for example, the unit 
voting assistance officer, as you mentioned, of whom there are 
thousands across the Services are actually required on odd-
numbered years to provide a Federal postcard application to 
every service member.
    And during even-numbered years they are supposed to provide 
it twice a year, once in January and once in July.
    Mr. Coffman. And, Ambassador, we know that that is taking 
place?
    Mr. Moorefield. That is what has been reported, 
Congressman.
    And we are going to make a more aggressive effort beginning 
now, or we already undertook this starting several months ago 
to confirm that that is actually taking place.
    Mr. Coffman. Thank you both for your efforts. And my 
concerns obviously are military-wide but in particular those 
serving in a combat zone. And I have been in both in, you know, 
major base camps in a combat zone and out in forward operating 
facilities.
    And I can tell you, out in those forward operating bases, 
communications is pretty tough sometimes. And so I would just 
really hope that we take that into account so we can make sure 
that those who are fighting in defense of our freedom, again, 
have the right to vote--that most sacred freedom.
    With that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Mr. Coffman.
    We have a final follow-up question with Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I just wanted to follow up on your comment, Ms. Mitchell, 
because you said, and I think we are very aware of this, that 
States have different laws related to absentee ballots, which 
some of them, as you said, make it very difficult for service 
members to get the information and be able to act on it.
    Are you all doing anything that would kind of help pull 
some of that information together in those instances where it 
really is difficult? And what changes could be made?
    I would love to, you know, invite my colleagues to be 
concerned about this because we know that in many States it is 
so difficult for people to get an absentee ballot.
    And it shouldn't be that way. In Federal elections 
everybody ought to have equal access. And so where we have that 
access in some States and it is, you know, it is almost 
impossible in others, what are you finding?
    Can you help us with that information so that we can make 
certain that our men and women overseas--who happen to come 
from States where their absentee balloting is so difficult--
that they have that opportunity, because that is where the 
problem is.
    It is not necessarily in just getting the ballot. It is 
because they can't somehow comply in some way.
    Ms. Mitchell. Yes, ma'am. And we have a lot of information 
available on our Web site, FVAP.gov, to help with that. We also 
have online wizards that are really very easy to use and walk 
service members and overseas citizens through the process.
    So we think that has done a lot to aid in folks being able 
to both register to vote and to request a ballot.
    But in terms of the different laws and levels of 
complexity, we do believe that one of the efforts I had 
mentioned earlier, UMOVA, which would standardize things across 
the States would really be a big help to service members.
    And as I recall, I want to say right now six States plus 
the District of Columbia have passed that.
    Mrs. Davis. Yes. Thank you very much. And again I do invite 
everyone at the----
    Mr. Wilson. No. Thank you, Mrs. Davis.
    And I would like to thank everyone for their participation. 
Particularly Congressman West, thank you for your question 
about the post-election analysis 2010. I think that would be 
very helpful to the subcommittee.
    Additionally, I am very grateful for the Military Voter 
Protection Project. They have disclosed that there is a very 
low absentee ballot request participation thus far. But I am 
just confident that good people being involved, something can 
be done.
    So at this time I move that we adjourn.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 13, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 13, 2012

=======================================================================

      
                      Statement of Hon. Joe Wilson

           Chairman, House Subcommittee on Military Personnel

                               Hearing on

                   Federal Voting Assistance Program

                           September 13, 2012

    Today the Subcommittee meets to hear testimony from the 
Department of Defense to help us understand how members of the 
Armed Forces and their families along with U.S. civilians 
living and working outside of the United States are afforded 
the opportunity to exercise their right to vote. I want to 
welcome our witnesses and I look forward to their testimony.
    Voting is a fundamental and essential part of the 
democratic process. It is both our right and our duty as 
citizens of a democracy to set the direction of the Nation by 
selecting the individuals who will represent us at each level 
of government. This responsibility remains with us regardless 
of where we choose to live and work or, as in the case of our 
service members, where they are sent to defend our freedom.
    For many years, Congress has been concerned about military 
and overseas voters who have told us about the difficulties 
they face when they try to cast their ballots. Registering to 
vote, receiving a ballot by mail, and returning the ballot by 
mail in time for the vote to count in an election when the 
voter is not physically located in the U.S. is challenging at 
best. One can only imagine the difficulty trying to accomplish 
that same process when the voter is at a remote outpost in 
Afghanistan fighting a war.
    Yet, these are the very individuals who, through their 
military service, protect our right to vote.
    Congress has worked hard over the last several years to 
ensure that the men and women assigned overseas on behalf of 
our country do not lose their ability to vote as a result of 
their service. A number of Federal laws have been enacted to 
enable the military and U.S. citizens abroad to vote in Federal 
elections.
     Most recently, Congress enacted the Military and Overseas 
Voter Empowerment (MOVE) Act as part of the National Defense 
Authorization Act for Fiscal Year 2010. The MOVE Act required 
the Department of Defense to make several changes to the 
Federal Voting Assistance Program (FVAP) to improve the process 
by which military absentee voters cast their ballots. However 
the most recent report by the DODIG on DOD's implementation of 
the requirements of the MOVE Act finds that the military 
services are falling short in establishing Installation Voting 
Assistance offices. I look forward to hear from our DOD witness 
how the Department will fully implement the legislated 
improvements that were intended to assist military and overseas 
voters. I am also interested to know how the changes to FVAP 
have affected the military and overseas voter in the lead up to 
the 2012 general election.
    I will close by saying that every day, our troops lay their 
lives on the line to defend freedom and it is our job to make 
sure that they are not denied the right to vote.

                    Statement of Hon. Susan A. Davis

        Ranking Member, House Subcommittee on Military Personnel

                               Hearing on

                   Federal Voting Assistance Program

                           September 13, 2012

    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses, Ambassador Kenneth P. Moorefield, Deputy Inspector 
General for Special Plans and Operations, and Ms. Pamela 
Mitchell, the Acting Director of the Federal Voting Assistance 
Program. Thank you for being here with us.
    The Federal Voting Assistance Program has been given the 
lead in carrying out the responsibilities of the Department of 
Defense to inform and educate Americans worldwide of their 
right to vote, foster voter participation and protect the 
integrity and enhance the electoral process for overseas voters 
at every level of government--from the local to the Federal 
level.
    Many new voter assistance requirements were included in the 
National Defense Authorization Act for Fiscal Year 2010, Public 
Law 111-84, such as requiring the development of online portals 
to provide voter registrations procedures and notifications, 
and establishment of voting assistance offices, and development 
of standards for reporting requirements.
    I am very interested in hearing from our witnesses on how 
implementation is going, what we've learned and whether 
additional programs or processes have been identified to 
further improve voting assistance and participation. While the 
recent Inspector General report found that over half of the 
offices that are required to be established on military 
installations were unable to be contacted, the report did not 
address whether the offices that were established are effective 
in meeting the needs of military and overseas voters. What 
efforts, if any, is the Department taking to measure the 
effectiveness of these offices and the services that are being 
provided? The Inspector General recommended that alternative 
methods to reach out to military voters be adopted, especially 
since such a majority of them are young single individuals who 
do not have a high propensity to vote. If such efforts are 
undertaken, what efforts will be established to measure the 
effectiveness of these alternative methods? As resources 
continue to be reduced, we need to ensure that the programs 
that are established to assist military and overseas voters are 
efficient but also cost-effective.
    I look forward to hearing from our witnesses. The upcoming 
elections as we all know are a mere 7 weeks ahead; it is 
imperative that we ensure that all Americans have the ability 
to vote in our electoral process, but especially those who are 
on the front lines of defending our Nation. Thank you, Mr. 
Chairman.

[GRAPHIC] [TIFF OMITTED] T6216.001

[GRAPHIC] [TIFF OMITTED] T6216.002

[GRAPHIC] [TIFF OMITTED] T6216.003

[GRAPHIC] [TIFF OMITTED] T6216.004

[GRAPHIC] [TIFF OMITTED] T6216.005

[GRAPHIC] [TIFF OMITTED] T6216.006

[GRAPHIC] [TIFF OMITTED] T6216.007

[GRAPHIC] [TIFF OMITTED] T6216.008

[GRAPHIC] [TIFF OMITTED] T6216.009

[GRAPHIC] [TIFF OMITTED] T6216.010

[GRAPHIC] [TIFF OMITTED] T6216.011

[GRAPHIC] [TIFF OMITTED] T6216.012

[GRAPHIC] [TIFF OMITTED] T6216.013

[GRAPHIC] [TIFF OMITTED] T6216.014

[GRAPHIC] [TIFF OMITTED] T6216.015

[GRAPHIC] [TIFF OMITTED] T6216.016

[GRAPHIC] [TIFF OMITTED] T6216.017

[GRAPHIC] [TIFF OMITTED] T6216.018

[GRAPHIC] [TIFF OMITTED] T6216.019

[GRAPHIC] [TIFF OMITTED] T6216.020

[GRAPHIC] [TIFF OMITTED] T6216.021

[GRAPHIC] [TIFF OMITTED] T6216.022

[GRAPHIC] [TIFF OMITTED] T6216.023

[GRAPHIC] [TIFF OMITTED] T6216.024

[GRAPHIC] [TIFF OMITTED] T6216.025

[GRAPHIC] [TIFF OMITTED] T6216.026

[GRAPHIC] [TIFF OMITTED] T6216.027

[GRAPHIC] [TIFF OMITTED] T6216.028

[GRAPHIC] [TIFF OMITTED] T6216.029

?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 13, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6216.030
    
    [GRAPHIC] [TIFF OMITTED] T6216.031
    
    [GRAPHIC] [TIFF OMITTED] T6216.032
    
    [GRAPHIC] [TIFF OMITTED] T6216.033
    
    [GRAPHIC] [TIFF OMITTED] T6216.034
    
    [GRAPHIC] [TIFF OMITTED] T6216.035
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 13, 2012

=======================================================================

      
               RESPONSE TO QUESTION SUBMITTED BY DR. HECK

    Mr. Moorefield. As highlighted in our report, one of the most 
significant provisions of the MOVE Act was the requirement to establish 
an installation voting assistance office (IVAO) on every military 
installation worldwide (except for installations in a warzone). The 
President of the United States designated the Secretary of Defense as 
the official primarily responsible for overseeing all Federal Voting 
Assistance Programs--including the development of any definitions 
necessary to guide the Service Secretaries in their compliance with 
MOVE Act provisions. During our assessment of MOVE Act implementation, 
we explained that DOD and Military Department installation voting 
assistance office records were incomplete, did not include offices on a 
number of bases knowledgeable people might consider installations, and 
noted the absence of criteria or the definition of an ``installation'' 
for MOVE Act compliance purposes. On September 13, 2012, the Department 
of Defense issued DOD Instruction No. 1000.04, ``Federal Voting 
Assistance Program (FVAP.)'' The instruction applied to all Military 
Services, including the Instruction specifically required all Services 
to appoint a General Officer, Admiral, or a Member of the Senior 
Executive Service to manage their Service's voting assistance program, 
establish an installation voter assistance office on every base 
worldwide, and maintain accurate records. The instruction also allowed 
satellite office to accommodate geographically dispersed installations. 
Implementation and enforcement of this newly published policy document 
should address the installation voting assistance office issues we 
identified in our report. However, compliance with the DOD Instruction 
will be subject to DODIG's ongoing and independent oversight and 
reporting. [See page 11.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. TSONGAS

    Ms. Mitchell. Since the MOVE Act's passage, States have taken 
significant steps to improve the absentee voting process for absent 
military and overseas citizen voters. For instance, in 2008, 13 States 
offered military and overseas voters the option of receiving a blank 
ballot by email. Today, 48 States offer this service by email. Forty-
two States have enacted legislation authorizing changes to the absentee 
voting process for military and overseas citizen voters and 
implementing the MOVE Act reforms.
    Some voters still encounter obstacles that can impede voter 
participation. For instance, witness requirements--especially when the 
witness must be a U.S. citizen--can pose a substantial hurdle for Peace 
Corps volunteers, missionaries or other Americans who may be serving in 
a remote area by themselves. Four States (Alabama, Alaska, Virginia and 
Wisconsin) still require a ballot envelope to be witnessed in order for 
the ballot to be counted.
    Another obstacle is the decentralization of the election system and 
the sheer number of local election officials. Across the country, there 
are over 7,300 local election officials. Two States, Michigan and 
Wisconsin, have unusually decentralized election systems. Wisconsin 
alone has over 1,850 local election officials. Across Michigan, there 
are 11 municipalities called ``Grant Townships,'' each with its own 
local election official, and each with different contact information. 
For an absentee voter, figuring out where to send your election 
materials can be confusing and time consuming. At the other end of the 
spectrum, two States (Alaska and Maine) have a single, centralized 
point of contact for all overseas and military voters. That is a real 
benefit to voters. Though only ten States hold run-off elections, they 
vary greatly in how they treat absent military and overseas citizen 
voters. Texas changed the State election calendar in 2011 to allow 65 
days in between the primary and run-off elections, ensuring that 
election officials could send blank ballots to military and overseas 
voters 45 days before each election. Timing issues remain in several of 
the other runoff States; the U.S. Department of Justice sued Georgia 
earlier this year for not allowing military and overseas voters an 
adequate opportunity to participate in that State's primary runoff 
elections. [See page 12.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. WEST

    Ms. Mitchell. As stated, the Department of Defense Office of the 
Inspector General (DODIG) reported investigators were only able to 
contact 114 Installation Voter Assistance (IVA) Offices. The Military 
Services have established 221 IVA Offices. The listing used by the 
DODIG in August 2012 was a March 2012 contact list. Information on this 
list changes regularly. Since that time, FVAP has worked with the 
Services to ensure accurate contact information for each office. In 
addition, FVAP has and will continue to contact every IVA Office weekly 
until the election.
    FVAP did review the processes and procedures for the program from 
2010 and the results are contained in the 2010 Post Election Survey 
Report. As indicated in the Report, FVAP provided extensive in-person 
and Webinar training for the new MOVE Act requirement for Installation 
Voter Assistance (IVA) Offices as indicated on pages 37-38. Pages 54-57 
detail the Services MOVE Act implementation activities.
    A copy of the 2010 report may be found at: http://www.fvap.gov/
resources/media/2010report.pdf. [See page 14.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 13, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. In 2011, the Federal Voting Assistance Program (FVAP) 
arranged for the voting system testing laboratories to perform 
functionality and security testing on both online ballot marking 
systems and Internet voting systems. The results of these tests were to 
be made available to the public but as we rapidly approach the 2012 
elections, these reports have yet to be published. These online ballot 
marking systems will be used in States across the country in the 
November elections, and election administrators could benefit from the 
results of these reports. What are FVAP's plans for releasing these 
test reports?
    Ms. Mitchell. These tests are at different stages of ongoing 
review. The early release of these results without a full vetting of 
issues and a thorough assessment would lead to incomplete and 
potentially inaccurate results. The first of the assessments will be 
released in December 2012, with all of the assessments being released 
by the end of the 2nd quarter.
    Mrs. Davis. In 2010, FVAP received about $9 million for research, 
development, testing and evaluation (RDT&E) of online balloting and 
Internet voting systems which was largely used for the funding of the 
Electronic Voting Support Wizards (EVSW). In 2011 and 2012, FVAP 
received a combined total of $65 million for RDT&E for projects to 
assist military and overseas voters. Can your office provide a summary 
of the projects this money funded and what was learned from the 
research, development, evaluation and testing performed?
    Ms. Mitchell. Please see the listing of projects and activities 
below.

    FY 2012 Research, Development, Test & Evaluation (RDTE)--Funds not 
yet executed (RDTE is two-year funding and can be spent over a two-year 
period.)

    FY 2011 RDTE

    <bullet>  EASE Grants: The Electronic Absentee Systems for 
Elections (EASE) Grants Program provides funds to States and localities 
to enable military and overseas voters to use electronic systems such 
as online registration, absentee ballot requests, and blank ballot 
delivery. Reports, from grant recipients on the utility of these 
systems, are pending.

    <bullet>  Candidate database for R3: During the 2010 election 
cycle, FVAP implemented ``R3,'' also referred to as FVAP's online 
wizards, a paperless, automated process system. R3 guides the voter 
through the completion of the Federal Post Card Application and the 
Federal Write-In Absentee Ballot. R3 now has the capability to import 
candidate data and allow FVAP staff to validate the data prior to 
presenting candidates to the public. This reduced FVAP's reliance on 
third party sources for candidate information and improved FVAP's 
ability to perform internal quality assurance reviews of this 
information.

    <bullet>  Voting Over the DISN-CAC Analysis: In support of the 
electronic voting demonstration project (aka, Internet voting project) 
pursuant to the 2002 and 2005 National Defense Authorization Acts 
(NDAAs), FVAP awarded a contract to study the feasibility of voting 
over the Defense Information Systems Network (DISN) using the Common 
Access Card (CAC) as an identification credential. Final deliverable 
was received in October 2012 and is being reviewed.

    <bullet>  Non Technical Research: FVAP awarded contracts to study 
the following. This is ongoing research and results are not yet 
available.

        <all>  Analysis of the processes employed by all strata of 
        UOCAVA voters for potential deficiencies, risks, and pitfalls 
        which serve as barriers to voting success.

        <all>  To determine the differences of voting success rates 
        between UOCAVA and non-UOCAVA voters in Federal elections 
        across States that identify election data trends over time.

        <all>  To assess and identify the social and behavioral factors 
        that influence UOCAVA voters.

        <all>  To complete a series of studies and analyses related to 
        the security of voting systems that UOCAVA voters could use.

    <bullet>  Portal: FVAP awarded a contract to develop a dynamic, 
data-driven portal to replace its existing, static Web site (FVAP.gov). 
The portal will serve as the basis for the development of a series of 
Web services and applications designed to meet the needs of overseas 
military and overseas voter stakeholders. This effort has just begun.

    <bullet>  Kiosk: FVAP awarded a contract to obtain two reports 
reflecting lessons learned from the 2008 Okaloosa County's Internet 
voting pilot project, with the second report directly applying lessons 
learned into an operational framework for potential use as a future 
demonstration project. This work is ongoing and results are not yet 
available.

    <bullet>  OCC Survey: FVAP awarded a contract to develop a 
scientifically based estimate of the U.S. overseas citizen population. 
This work is ongoing and results are not yet available.

    FY 2010 RDTE

    <bullet>  Electronic Voting Assistance Wizard (EVSW): Pilot program 
for online blank ballot delivery and marking wizard to allow military 
and overseas voters to receive and mark, online, their absentee 
ballots. Results of this effort are pending internal Department review 
and compilation of a final report.

    <bullet>  Operation Vote: FVAP conducted extensive research, 
testing, and evaluation of Kiosk and PC voting systems with the intent 
of supporting disabled military members, military members, their 
spouses and dependents, and overseas citizen voters to register and 
vote successfully with a minimum amount of effort. Full results of this 
effort are pending final internal review. However, one valuable outcome 
already promulgated was a checklist and handbook for voting assistance 
officers to use in helping wounded warriors exercise their right to 
vote.
    Mrs. Davis. According to a mandate in the FY05NDAA, the U.S. 
Election Assistance Commission (EAC) is responsible for developing the 
guidelines for a remote electronic voting demonstration project to be 
carried out by the FVAP once the EAC creates these guidelines. In May, 
NIST issued a statement warning that secure Internet voting is not 
currently feasible and that more research is needed. In light of this 
development, has FVAP adjusted its proposed timeline for a remote 
electronic voting demonstration project? Does FVAP plan to alter any of 
its proposed research and development projects for 2012 and 2013?
    Ms. Mitchell. At this time, FVAP does not anticipate implementing 
the electronic voting demonstration project without applicable 
standards in place as referenced in the FY05 NDAA. FVAP, the EAC, and 
NIST have worked collaboratively over the last few years to chart a 
responsible course forward in adhering to the outstanding Congressional 
requirement for the conduct of an electronic voting demonstration 
project. FVAP continues to focus on supporting research that will help 
drive the standards development process itself, and does not currently 
plan to alter any of the ongoing research and development projects for 
2012 and 2013.

    FVAP is currently engaged in both technical and non-technical 
research in support of the outstanding concerns regarding Internet 
voting security:

    Technical Research Initiatives:

        <bullet>  Conduct research on the relative security and privacy 
        risks of the current postal balloting experience versus a 
        potential Internet solution (i.e., electronic voting 
        demonstration project) to establish the relative security risks 
        of each and identify potential trade-offs.

        <bullet>  Research the relative technical processes associated 
        with using the Defense Information System Network (DISN) and 
        Common Access Card (CAC) to mitigate security risks in response 
        to NIST's concerns about public networks.

        <bullet>  Explore the viability of existing software tools to 
        document software integrity and reconcile voting system 
        elements with Federal information security guidelines.

    Non-Technical Research Initiatives:

        <bullet>  Document the overall failure rates for UOCAVA voters 
        and validate past research data to fully document the level of 
        difficulties experienced by UOCAVA voters in casting ballots.

        <bullet>  Examine pilot program alternatives to the electronic 
        voting demonstration project that do not expose voting systems 
        to increase security risks.

        <bullet>  Further quantify the overseas civilian population to 
        assist with overall assessment of FVAP program effectiveness 
        and scope of future pilot projects.

    All of the ongoing FVAP research attempts to answer outstanding 
policy questions and further assist the EAC and NIST with developing 
security standards.
    Mrs. Davis. A NIST statement from May 2012 said, ``NIST's research 
results indicate that additional research and development is needed to 
overcome these challenges before secure Internet voting will be 
feasible.'' Given NIST's statement, does FVAP currently encourage 
States to allow the electronic transmission of voted ballots for 
overseas and military voters? If so, what message does it communicate 
to State elections officials?
    Ms. Mitchell. No, FVAP does not advocate for Internet voting 
(online return of a voted ballot in a live election). FVAP currently 
encourages States to offer tools to Uniformed and Overseas Citizens 
Absentee Voting Act (UOCAVA) voters that focus on online registration 
and the electronic transmission of blank ballots.
    FVAP's grants program researches the long-term effectiveness of 
various electronic voter support systems. These competitive grants are 
awarded to State and local election officials across a broad spectrum 
of electronic absentee voting initiatives. The final terms and 
conditions of these awards specifically preclude use of grant funding 
for electronic transmission of voted ballots in an actual election via 
the Internet, email, or facsimile.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
